                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: A01060022                                                                   Page 1 of 1      11
     On March 14,2001, NSF received an allegation that a computer scientist' submitted an NSF
     proposal2 containing material plagiarized from an article by another researcher. Our review of the
     article supported the allegation, and we opened the matter for inquiry on June 11,2001.

     We wrote the computer scientist, who stated that the technical portions of the proposal were
     written by an international collaborator (Subject3).We then informed the Subject of the
     allegation. He acknowledged copying the text without citation and distinction, but stated that his
     action was "Not on purpose. It was only a mistake."

     In the further course of our inquiry, we found that the proposal was originally submitted by the
     Subject to an international program administered by an interagency board under the aegis of the
     U.S. Department of State4.When this program selected NSF as the appropriate agency to review
     the proposal, the U.S. collaborator was directed by NSF to reformat the proposal and submit it
     through FastLane. In mid-December we consulted Dept. of State OIG, who requested that we
     take the lead on this and another case involving the same program5.

     The matter was opened for investigation on February 12,2002. Because the Subject is employed
     by a foreign, non-awardee institution, we could not defer our independent investigation. In the
     course of our investigation, we analyzed the proposal and found additional sources of
     unattributed text. We concluded that the Subject, as the primary author of the original proposal,
     bore responsibility for these acts of plagiarism.

     Because of the special circumstances in this case, we focused on preventive measures. We
     recommended to Dept. of State and NSF that the solicitation for this program be strengthened to
     include a statement on standards for research proposals, consistent with NSF's Grant Proposal
     Guide. Revised guidelines have now been issued which specifically address plagiarism.

     We informed the Subject of our conclusions, noting that the results of our investigation could be
     used in a future case. We invited his comments or rebuttal concerning our analysis (any
     comments received will be added to the case file). We emphasized the consequences of research
     misconduct and advised him of the revised guidelines. Accordingly, this case is closed.
